HHS/OIG-Audit-"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Montana Department of Public Health and Human Services,"(A-06-01-00005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the
Medicaid Prescription Drug Program of the Montana Department of Public Health
and Human Services," (A-06-01-00005)
February 12, 2002
Complete
Text of Report is available in PDF format (1.4 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount,
which varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the Montana Medicaid program
an estimate of the discount below AWP at which pharmacies purchase brand name
and generic drugs.  Our estimate of the overall discount below AWP for
the invoice prices we reviewed was 19.71 percent for brand name drugs and 65.37
percent for generic drugs. Our national estimates, included in reports we previously
issued, were 21.84 percent and 65.93 percent, respectively.  We recommended
that the Montana Department of Public Health and Human Services (State Agency)
consider the results of our review as a factor in any future changes to pharmacy
reimbursement for Medicaid drugs.  The State Agency stated that they would
consider the results in any future changes to their pharmacy reimbursement.